Case 20-240, Document 32, 05/28/2020, 2849203, Pagel of 1

S.D.N.Y.-N.Y.C.
19-CV-9979
McMahon, C.J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 28th day of May, two thousand twenty.
Present:
Rosemary S. Pooler,
Reena Raggi,
William J. Nardini,
Circuit Judges.
Loretta Jones,
Plaintiff-Appellant,
20-240

v.
New York City, et al.,
Defendants-Appellees.

Appellant, pro se, moves for leave to proceed in forma pauperis. Upon due consideration, it is
hereby ORDERED that the motion is DENIED and the appeal is DISMISSED because it “lacks an
arguable basis either in law or in fact.” Neitzke v. Williams, 490 U.S. 319, 325 (1989); see also 28
U.S.C. § 1915(e).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

Case 20-240, Document 47, 07/29/2020, 2895251, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT

At a Stated Term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on
the 29th day of July, two thousand and twenty,
Present:

Rosemary S. Pooler,
Reena Raggi,
William J. Nardini,
Circuit Judges.

ORDER
Docket No. 20-240

Loretta Jones,
Plaintiff - Appellant,
v.
New York City, New York City Police Department,
State of New York, Federal Bureau of Investigation,
United States, Vanessa Light, Acting agent thereof and
company,
Defendants - Appellees.

Loretta Jones filed a motion for reconsideration and the panel that determined the motion
has considered the request.
IT IS HEREBY ORDERED, that the motion is denied.

For The Court:
Catherine O'Hagan Wolfe,
Clerk of Court
SECOND \*j

“Tern? . ri

r*

Case l:l9-cv-09979-CM Document 7 Filed 12/20/19 Page 1 of 1

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
LORETTA JONES,
Plaintiff,
-against-

l:19-CV-9979 (CM)
CIVIL JUDGMENT

NEW YORK CITY POLICE DEPT., et al.,
Defendants.

i

Pursuant to the order issued December 20,2019, dismissing this action as frivolous,
IT IS ORDERED, ADJUDGED AND DECREED that this action is dismissed as
frivolous. 28 U.S.C. § 1915(e)(2)(B)(i).
The Court certifies under 28 U.S.C. § 1915(a)(3) that any appeal from the Court’s
judgment would not be taken in good faith.
IT IS FURTHER ORDERED that the Clerk of Court note service on the docket.
SO ORDERED.
Dated:

December 20, 2019
New York, New York
COLLEEN McMAHON
Chief United States District Judge

Case l:19-cv-09979-CM Document 6 Filed 12/20/19 Page 1 of 3

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
LORETTA JONES,
Plaintiff,

l:19-CV-9979 (CM)

-against-

ORDER OF DISMISSAL

NEW YORK CITY POLICE DEPT., et al.,
Defendants.
COLLEEN McMAHON, Chief United States District Judge:
Plaintiff, appearing pro se, brings this action seeking injunctive relief.1 By order dated
December 13,2019, the Court granted Plaintiffs request to proceed without prepayment of fees,
that is,

in forma pauperis (“IFP”). The Court dismisses this action for the reasons set forth below.
STANDARD OF REVIEW
The Court must dismiss an IFP complaint, or portion thereof, that is frivolous or

malicious, fails to state a claim on which relief may be granted, or seeks monetary relief from a
defendant who is immune from such relief. 28 U.S.C. § 1915(e)(2)(B); see Livingston v
Adirondack Beverage Co., 141 F.3d 434,437 (2d Cir. 1998). The Court must also dismiss a
complaint when the Court lacks subject-matter jurisdiction. See Fed. R. Civ. P. 12(h)(3). While
the law mandates dismissal on any of these grounds, the Court is obliged to construe pro se
pleadings liberally, Harris v. Mills, 572 F.3d 66,72 (2d Cir. 2009), and interpret them to raise the
“strongest [claims] that they suggestTriestman v. Fed. Bureau ofPrisons, 470 F.3d 471,474
(2d Cir. 2006) (internal quotation marks and citations omitted, emphasis in original).

1 Days after Plaintiff filed her complaint, she filed an “addendum.” (ECF 4.) The Court
construes Plaintiff s addendum as a supplement to her complaint.

2&P

/
/

/

Case l:19-cv-09979-CM Document 6 Filed 12/20/19 Page 2 of 3

A claim is frivolous when it “lacks an arguable basis either in law or in fact.” Neitzke v.
Williams, 490 U.S. 319, 325 (1989), abrogated on. other grounds by Bell Atl. Corp. v. Twombly,
550 U.S. 544 (2007); see also Denton v. Hernandez, 504 U.S. 25, 33 (1992) (holding that a
“finding of factual frivolousness is appropriate when the facts alleged rise to the level of the
irrational or the wholly incredible”); Livingston, 141 F.3d at 437 (2d Cir. 1998) (“[A]n action is
‘frivolous’ when either: (1) the factual contentions are clearly baseless ...; or (2) the claim is
based on an

indisputably meritless legal theory”) (internal quotation marks and citation omitted).
DISCUSSION

Plaintiff asserts that the defendants - the New York City Police Department ( NYPD ),
the City ofNew York, the State of New York, the Federal Bureau of Investigation (“FBI ), the
United States of America, and an individual named Vanessa Light - have violated her federal
constitutional rights.
Plaintiff alleges that the events that are the basis of her claims began to occur in 1992 and
have continued to the present. She asserts that they have occurred in her “residence, workplace,
and all places attending.” (ECF 2, at 5.) She alleges that
[wjhile being stalked, raped and abused by a former New York City police officer
who was also a convicted mafia felon, the [FBI], the NYPD and others began
investigations that included contacting me and which escalated against me to
include employing known drug dealers such as a Vanessa Light... to tell me they
don’t care and they’re not going to stop.
The harassment had grown to 3 groups identifying themselves as police, FBI
and “military” who were using surveillance and invasive technologies upon my
personal space and even my body remotely rendering me defenseless. They claim
this is what they do to terrorists and pedophiles/molesters, though I am none of
those and demand to be free of their assaults. They further claim to each other and
revealed to me last week that they need to prove they can control me by their 24hr., minute-to-minute narrations into my space by their speaker technologies.
When of course I resist any of their often lewd and always unconstitutional
barrages they respond with sleep deprivation tactics and the like.
{Id. at 5-6.)
2

Case l:19-cv-09979-CM Document 6 Filed 12/20/19 Page 3 of 3

Even when read with the “special solicitude” due pro se pleadings, Triestman, 470 F.3d at
475,
can

Plaintiffs claims rise to the level of the irrational, and there is no legal theory on which she

rely. See Denton, 504 U.S. at 33; Livingston, 141 F.3d at 437. The Court therefore dismisses

this action as frivolous. See 28 U.S.C. § 1915(e)(2)(B)(i).
District courts generally grant a pro se plaintiffan opportunity to amend a complaint to
cure its

defects, but leave to amend is not required where it would be futile. See Hill v. Curcione,

657 F.3d 116, 123-24 (2d Cir. 2011); Salahuddin v. Cuomo, 861 F.2d 40, 42 (2d Cir. 1988).
Because

the defects in Plaintiffs complaint cannot be cured with an amendment, the Court

declines to grant Plaintiff leave to amend.
CONCLUSION
The

Clerk of Court is directed to assign this matter to my docket and note service on the

docket. Plaintiff has consented to electronic service of Court documents. (ECF 3.)
Plaintiffs action is dismissed as frivolous under 28 U.S.C. § 1915(e)(2)(B)(i).
The Court certifies under 28 U.S.C. § 1915(a)(3) that any appeal from this order would
not be taken in good faith, and therefore IFP status is denied for the purpose of an appeal. See
Coppedge v. United States, 369 U.S. 438,444-45 (1962).
SO ORDERED.
Dated:

December 20, 2019
New York, New York
COLLEEN McMAHON
Chief United States District Judge

3

Case l:19-cv-09979-UA Document 5 Filed 12/13/19 Page 1 of 1

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
LORETTA JONES,
Plaintiff,

L19-CV-9979 (UA)

-against-

ORDER GRANTING IFP APPLICATION

NEW YORK CITY POLICE DEPT., et al.,
Defendants.
COLLEEN MclylAHON, Chief United States District Judge:
Leave to proceed in this Court without prepayment of fees is authorized. See 28 U.S.C.
§1915.
SO ORDERED.
Dated:

December 13, 2019
New York, New York
COLLEEN McMAHON
Chief United States District Judge

A

/> /\ /I ./I/1

I

- &

Additional material
from this filing is
available in the
Clerk's Office.

